                             TESTIMONY OF

             THE HONORABLE DONALD A. GAMBATESA,

                         INSPECTOR GENERAL,

         U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                               BEFORE THE

       APPROPRIATIONS SUBCOMMITTEE ON STATE, FOREIGN
            OPERATIONS, AND RELATED PROGRAMS

 “OVERSIGHT OF U.S. CIVILIAN ASSISTANCE FOR AFGHANISTAN”


                              JULY 15, 2010


      Madam Chairwoman Lowey, Ranking Member Granger, and

distinguished members of the Subcommittee, thank you for inviting me here

today to testify on fraud and corruption in Afghanistan. I know you are

concerned about recent media reports describing allegations of corruption

among Afghan officials, funds being diverted to the Taliban, and large

amounts of currency being exported from Afghanistan. The Subcommittee

understandably wants assurances that U.S. foreign assistance funding is

being protected from fraud, waste, and abuse. I would be happy to share our

views with the Subcommittee on these important issues.
                                          2


                                      Introduction

       Afghanistan’s reputation for corruption and fraud is well known.

A January 2010 report from the United Nations states that it is almost

impossible to obtain a public service in Afghanistan without paying a bribe. 1

The country’s ranking in Transparency International’s Corruption

Perceptions Index has continued to drop dramatically since 2005. The latest

report for 2009 ranks Afghanistan at 179 out of 180 countries—the second

worst in the world. 2   Furthermore, the environment is extraordinarily

dangerous. Since 2002, approximately 400 people, mostly Afghan nationals

working on USAID projects, have been killed and approximately 500

injured and disabled in attacks.

       The U.S. Agency for International Development (USAID) currently

has over 260 U.S. civilian personnel and more than 150 Foreign Service

Nationals working in Afghanistan. These employees oversee approximately

100 ongoing grants and contracts worth over $7 billion. Since 2002, the

agency has invested more than $9 billion in foreign assistance programs in

Afghanistan.




1
  “Corruption in Afghanistan, Bribery as Reported by the Victims,” United Nations
Office on Drugs and Crime, January 2010.
2
  http://www.transparency.org/policy_research/surveys_indices/cpi/2009/cpi_2009_table
                                       3


      The Office of Inspector General (OIG) has provided oversight of

USAID programs in Afghanistan since fiscal year 2003. Because of the

unusually high risks and large commitment of foreign assistance funds in

Afghanistan, we have devoted substantial oversight to programs in that

country. Since 2003, we have conducted 34 performance audits and made

128 recommendations to correct deficiencies and make program

improvements. We have issued 33 financial audits, which have resulted in

nearly $100 million in sustained questioned costs. I should mention that

USAID has been extremely responsive in implementing our performance

audit recommendations: 80 percent have been addressed, and the Agency is

taking corrective actions in response to those that remain open.

      We have initiated more than 70 investigations, which have resulted in

recoveries and savings of approximately $150 million and nine

administrative actions, such as employee and contractor terminations and

suspensions and debarments. In the past 2 years alone, we have referred

10 individuals to the Department of Justice for prosecution and 4 individuals

to local Afghan prosecutors. During the same time period, five have been

convicted on criminal charges such as bribery, major fraud, and conspiracy.

      Before I discuss the specifics of some of our work and the internal

controls that are in place to safeguard program funds, I should tell you that
                                       4


we have no evidence linking USAID assistance programs to the large

quantities of U.S. dollars that are reportedly being shipped from

Afghanistan. Although Afghanistan is largely a cash economy, USAID

seeks to provide funds to contractors and grantees through electronic

transfers and local currency.

                            Fraud Investigations

      Our criminal investigators understand USAID programs and have a

great deal of experience conducting fraud investigations in Afghanistan. To

leverage our resources, we work collaboratively with the Special Inspector

General for Afghanistan Reconstruction, the Federal Bureau of

Investigation, the International Contract Corruption Task Force, and other

law enforcement agencies. We also work with local Afghan police officials

and prosecutors.

      Our investigations focus on allegations of fraud and serious

mismanagement by individuals and organizations. When the allegations

involve host country nationals, we assist Afghan police and prosecutors in

conducting certain investigative activities, such as surveillance of suspects,

executing search warrants, and effecting arrests. These efforts have resulted

in successful prosecution in Afghan courts.
                                       5


      For example, an ongoing investigation of a USAID contractor has

resulted in the termination of 10 employees. The contractor was responsible

for implementing a $349 million local governance project intended to

address causes of instability and support for the insurgency and to encourage

local communities to take action in promoting their own stability and

development. Employees of the contractor had approached owners of

various companies bidding for subcontracts, offering to help the companies

win awards in exchange for a percentage of the contracts’ value. Our office

has referred the case to an Afghan prosecutor, and we will recommend that

the terminated employees be barred from future U.S. Government awards.

      Another recent investigation resulted in the arrest and prosecution

under Afghan law of an employee working on a USAID community

development project. The individual was accused of embezzling nearly

$193,000 while working as a finance coordinator on a $229 million local

governance program. He was responsible for depositing the contractor’s

monthly tax payments to the Afghan Ministry of Finance, but the ministry

reported that it had not received the payments. Local Afghan law

enforcement officials, with our investigators’ assistance, discovered that the

bank deposit slips the subject had submitted to the contractor as proof of
                                       6


payment were not legitimate. The individual has now been charged with

forgery violations under Afghan law and is in jail in Kabul awaiting trial.

      Although the Afghan Government has not interfered with any of our

investigations, we sometimes have difficulty pursuing investigations because

of concerns for the security of informants and witnesses. Individuals who

provide us with information are often reluctant to continue to participate in

investigations out of fear for their safety. When we cannot pursue

investigations for this reason, we share relevant information with the

appropriate U.S. Government agencies within the Kabul Embassy.

      In addition to our investigative efforts, our auditors also identify

suspected fraud. A recent audit of an agricultural program in Afghanistan

found widespread irregularities in the records showing distribution of seed

and fertilizer, as well as in timesheets for employees in cash-for-work

programs. In both cases, recipients were required to mark beneficiary rolls

with their fingerprints as evidence that they had received commodities or

cash under the program, but the auditors found numerous instances in which

fingerprints appeared to be identical. A program subcontractor told the audit

team about other cases in which program commodities had not been received

by the targeted farmers and the names of allegedly nonexistent people had

appeared in beneficiary rolls. Our investigators are looking into these
                                      7


irregularities. We will continue to conduct performance audits of USAID

programs so that we can identify other possible fraud and mismanagement.

Our oversight in Afghanistan for the remainder of 2010 will include audits

and reviews of programs related to economic development, roads, health and

education, availability of technology, electoral support processes, and

alternative development. We will also complete an ongoing review of

security contracts to determine whether bribes were paid to the Taliban or

other groups in exchange for protection.


                              Control Systems

      USAID has several systems in place to prevent fraud and abuse. For

example, USAID conducts preaward surveys of contractors and grantees to

ensure that they have the necessary accounting systems and experienced

personnel to manage USAID funds responsibly.

      In addition, accounting and audit provisions are in place that require

annual financial audits of contracts and grants and mandate that contractors

and grantees maintain records showing how USAID funds were used. These

provisions must also be included in any subawards.

      USAID has also imposed financial reporting requirements for

contractors who receive advance payments. Specialists examine the
                                       8


contractors’ vouchers to determine acceptability of the charges before

forwarding them to a certifying officer for payment.

      Assistance projects are overseen by USAID employees or by third

parties, who conduct site visits and review program progress reports.

However, our audits have noted that the oversight is not as robust as it

should be and that USAID does not have a sufficient number of qualified

personnel on the ground to effectively monitor projects. In response,

USAID is developing a more effective monitoring and evaluation process, to

include increasing staffing and training.

      Our office supplements USAID’s oversight by performing financial

audits, and we provide policy direction and quality control for financial

audits of contractors and grantees performed by public accounting firms that

we have found to be eligible to audit USAID funds. The audits focus on

determining whether USAID funds have been used for agreed-upon

purposes, and the auditors also provide reports on cost-sharing contributions,

internal controls, and compliance with contract and grant terms and

applicable laws and regulations. Auditors pay particular attention to controls

over cash, since cash payments are considered to be more vulnerable to

fraud and misuse.
                                       9


      We conduct concurrent audits of the highest-risk program areas, such

as infrastructure projects, to provide early detection of potential problems.

As I mentioned earlier, we also conduct performance audits that focus on

whether USAID programs are achieving their intended goals.

      Finally, we conduct fraud education activities to inform USAID staff,

contractors, and grantees (including subcontractors and subgrantees) about

fraud indicators and to encourage them to contact OIG if they encounter any

indications of fraud or misconduct. In the past 90 days alone, we have

provided these briefings to more than 500 people.


                            Oversight Challenges

      Oversight in Afghanistan is complicated by a multitude of factors:

Security concerns, language limitations, cultural differences, and lack of

jurisdiction over certain funds.

      As part of the U.S. Government’s commitment to the Paris

Declaration principles, USAID is channeling increasing levels of

development funding directly to the government of Afghanistan. By leading

the resulting development projects, the Afghanistan government can shape

more development activities, promote project sustainability, and build public

confidence in the government’s ability to deliver programs that improve the
                                       10


 welfare of the people. However, Afghanistan is still developing the capacity

 to manage projects and monitor and account for associated resources. This

 places federal dollars at greater risk of waste, fraud, and abuse. USAID

 must develop an approach to building Afghanistan’s capacity that balances

 the imperative for local engagement in the development process with

 effective stewardship of taxpayer dollars.

       The effective stewardship of taxpayer dollars is also critical for

 budget support provided to the Afghan Government through trust funds or

 other instruments managed by international organizations. USAID/OIG

 does not have audit rights to these funds. Therefore, oversight of these funds

 becomes the responsibility of the implementing entity.

                                  Moving Forward

       Considering the reported problems of corruption and the lack of

 capacity in Afghan institutions for safeguarding resources, we believe that

 USAID funding is at significant risk of waste, fraud, and abuse. Several

 steps could be considered to minimize these risks:

       ¾ Require that direct assistance to the Government of Afghanistan be

committed through specific projects, so that USAID funds can be traced to

end uses, as opposed to being commingled with other sources of funding.
                                        11


       ¾ Require concurrent audits—conducted or supervised

by USAID/OIG—of USAID’s direct assistance to the Government of

Afghanistan.

       ¾ Adopt specific contracting practices for Afghanistan and other

 conflict settings that limit the tiers of subcontractors and subgrantees.

       In addition to the options I have mentioned, OIG can take the

 following actions, as resources permit, to further mitigate risk:

       ¾ Review USAID’s preaward survey and certification process to

 determine whether further strengthening is required of the criteria for

 approving organizations for awards.

       ¾ Conduct a review of cash disbursement practices employed by

 USAID contractors and grantees.

       ¾ Increase participation with other federal agencies that are

 following the trail of expenditures in Afghanistan.

       We appreciate the Subcommittee’s interest in our work. To help OIG

 meet its oversight challenges, we ask for favorable consideration of

 proposals to expand our personnel authorities that are provided in versions

 of H.R. 4899. These authorities would allow us to increase our oversight

 presence in Afghanistan by supplementing existing staff with other highly

 qualified and experienced personnel. We would also use these authorities to
                                      12


retain personnel with the language skills and cultural understanding that

would enhance our audit and investigative activities.

      We share the Subcommittee’s concerns about ensuring that funding

appropriated to foreign assistance programs in Afghanistan is not wasted or

channeled to those who wish to do us harm, and we are making every effort

to respond to associated reports and allegations. I would be happy to answer

any questions you may have at this time.
